,^0“8£!38
Cx--- :----------------------

IN THE
SUPREME COURT OF THE UNITED STATES
W

llliii
S @ lifi Ife]
PETITIONER

MARIO SALAS

FILED
OCT 0 8 2020

vs.

OFFICE OF THE CLERK
SUPREME COURT. U.S.

UNITED STATES OF AMERICA

- RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

MARIO SALAS REG No. 49988-053
MOSHANNON VALLEY CORRECTIONAL FACILITY
Unit D-5 / 28L
555 GEO DRIVE PHILIPSBURG, PA 16866
TELEPHONE : N/A

RECEIVED
OCT 1 9 2020

QUESTION(S) PRESENTED

1. Question in reviewing the merits of Rule 60(b)(6). Motion is
whether the unique fact of Petitioner's case reveal extraordinary
circumstances justifying relief from the Habeas sJudgment.
The answer to this question is "Yes"
2. Why if Appeal Courts have an inherent power to correct earlier
error, if it becomes apparent and avoid injustice.
3. In this instant case, does Buck, Tharpe and Apprendi, Haymond
reauire this Court to Remand with instruction to allow the Rule
60 (b) as timely filed.

i

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.

ii

TABLE OF CONTENTS
OPINIONS BELOW ...........................................................

1

JURISDICTION ................................................................

2

CONSTITUTIONAL AND STATORY PROVISIONS INVOLVED

3

STATMENT OF THE CASE ................................................

4-13

REASONS FOR GRANTING THE WRIT ..............................

14 - 27
27

CONCLUSION

INDEX TO APPENDICES
APPENDIX A

United States Court of Appeals' Opinion

APPENDIX B

United States District Court’s Order Denying Rule 60(b)

APPENDIX C

United States District Court's Order Denying §2255

APPENDIX D

United States Court of Appeal's Order denying
Rehearing and Rehearing en banc

APPENDIX E

United States Court of Appeal's Grants a Certificate
of Appealability

APPENDIX F

Jury Instructions

APPENDIX G

Indictment

iii

TABLE OF AUTHORITIES CITED

PAGE

CASES
Apprendi v. New .Jersey, 530 U.S. 530 (2000) ............

4-8,10,17,21,25

Agusta Fiberglass Coating, Inc v. Contracting Corp,

----- T^tTrTrrrf^y-” . rrr..:

22

Browder v. Dir., Dep't of Corr of Illinois.

—xT4'ir."~wr^"ir.TTr^y“"r.:...........

Buck v. Davis, 137 S.Ct 759 (2017) ..............................

21
17-19,22-25

Buck v. State,No 72, 810 Tex. Crim App Unpub LE:2 .

17

In re Burney, 988 F.2d 13 (4th Cir 1993) ..................

21

Clay v. United States, 537 U.S. 522 (2003) ............ .

7^9711-12,14-15,
18-19

Dowell v. State Farm Fire Cas', Auto Inc Co.,

■3TT'.^d"TFT^tlTl!rrVT^3T““

14
18

Erickson v. Pardus, 551 U.S. 89, 94 (2007) ..........

Gonzalez v. Crosby, 545 U.S. 524 (2005) ................

14-15,18-19

Griffith v. Kentucky, 479 U.S. 314 [(19)] ............

7

Hall v. Warden Md Penitentiary, 364 F.2d 495
------- ----- (^tfr“CTr"T9W en”T5anc ) ........................ ..

14

Haines v. Kerner, 404 U.S. 519 (1972) ....................

18

In re Heckert, 272 F.3d at 256-57 ............................

27

Hertz Corp v. Alamo

Rent Car, 16 F.3d at 1130-31

----------CirtirTrr“rTmr“-r:...........................
Lilierber
v. Health - Services
-------------- ___________

Acquisition Corp.,

26
15-16,21

Mose v. Joyner, 815 F.3d 163 (4th Cir. 2016) ....

14

In re Murchison, 486 U.S. at 864 .................... ..........

16

Rodd v. Region Const. Co., 783 F.2d 89 (7th Cir. (1986))... .

26

Satterfield v. District Attorney Philadelphia,

--------Tuirir.T'rxpTTrm^TFOTTrrirTiFrToi 7)

15

Stoecklin v. United States, 2001 WL 34142816
---------------(TrtTr-err^SFpT'rTOO!) .........................................

26

iv

Tharpe v. Seller, 138 S.Ct. 545:: January 8, 2018 ........

• • •

... 17-18,22

United States v. Baswell, 2019 LEXIS 31855, Feb 28, 2019 ....
United States v. Haymond, 139 S.Ct. 2369, 204 L Ed. 2d
897, 2019 ............ ...............................

16
21-22

jfaitgd States v. Kayser-Roth Corp., 272 F.3d 89 (1st Cir 2001)

22

United States v. Moradi, 673 F.2d 725 (4th Cir 1982) ................

22

United States v. MRae, 793 F.3d 392 (4th Cir.

19

2015) ................

United States v. One Toshiva Color Television,..........................................
213 F.3d 147
26
United States v. Phil i_£_ Morr i s USA Inc., 2016 WL 1069314
TU.C. Cir "March 17, 2016) ..............

26

United States v. Salas^, 211 F.3d 1266 (4th Apr 17, 2000) unpub.

4

United States v. Salas, 68 F.App'x 484 (4th Cir 2003) unpub....

8

United States v. Torres, 211 F.3d 836 (4th Cir 2000) .................. 6,8,9
United States v. Welsh, 879 F.3d 530 (4th Cir 2018) ........
United Student Aid Funds Inc, v. Espinoza, 559

........ 15-16,19,22

U.S.260 (2010)..

26

STATUTES AND RULES
28 U.S.C. § 2253 ........

17

Fed R. Cir. P 60(b) ..

8-9,11-12,15-19,21-22,25,27

Fed R. Cir. P 60(b)(4)

.......................... ..

Fed R. Cir. P 60(b)(6)

........ 12,14-15,17-20,26

12,18,26

Fed R. Cir. P 59 ........

10

Supreme Court Rule 13

4

Supreme Court Rule

4

30

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

1ST/A
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.

The opinion of the United States district court appears at Appendix
the petition and is

B

N/A
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
N/A
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
N/A
The opinion of the_________________________
appears at Appendix
_to the petition and is
n/a
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1.

court

to

JURISDICTION

[xl For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 23, 2020_____
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: May 21, 2020
, and a copy of the
order denying rehearing appears at Appendix_
[X] An extension of time to file the petition for a writ of certiorari was granted
(date) on March 19, 2020
to and including COVID-19
(date)
in Application No.589 a US
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix N/A .

N/A

[ ] A timely petition for rehearing was thereafter denied on the following date:
N/A____________ f and a copy of the order denying rehearing
appears at Appendix N/A
[ ] An extension of time to file the petition for a writ of certiorari was granted
N/A
to and including
(date) on
(date) in
Application No. __ A N/A .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1-

U.S. Constitution Amendment V
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a
Grand sJury, except in cases arising in the land or naval
forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the
sameoffence to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property
to be taken for public use, without just compensastion.

2-

U.S. Constitutional Amendment VI
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury
of the State and district wherein the crime shall have
been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assist­
ance of Counsel for his defense.

3- Title 21 U.S.C. § 841
4- Title 21 U.S.C. § 841(a)
5- Title 21 U.S.C. § 841(b)(1)(A)
6- Title 21 U.S.C. § 841(b)(1)(C)
7- Title 21 U.S.C. § 841(b)(1)(b)
8- Title 28 U.S.C. § 2255
9- Title 28 U.S.C. § 2253(c)(2)(2000)

3

STATEMENT OF THE CASE
CRIMINAL PROCEEDING: In June 1998, a Grand sJury indicted petitioner
for conspiracy to distribute heroin. The indictment did not specify
the quantity of heroin allegedly distributed. The case went to trial
and a jury convicted the Petitioner. The sJury returned a general
verdict; it made no finding on the quantity of heroin involved.
At sentencing the Petitioner's attorney objected to the drug
quantity used to determine the Petitioner's sentence as an uncons­
titutional due process violation.
The District Court made a finding as to drug quantity and,
based on the associated Sentencing Guidelines, sentenced the Peti­
tioner to life in prison.
Direct Appeal - The Petitioner's attorney timely noted an appeal.
On April 17, 2000, the Fourth Circuit affirmed the Petitioner's
conviction. United States v. Salas

211 F.3d 1266 (4th Cir Apr. 17,

2000) (unpublished). The Fourth Circuit issued judgment the same day.
On June 26, 2000, the Supreme Court decided Apprend v. New
Jersey, 530 U.S. 466 (2000). Apprendi help that any fact that
increase the penalty for a crime beyond the prescribed statutory
maximum, other than the fact of a prior conviction, must be submitted
to a jury and proved beyond a reasonable doubt.
On July 17, 2000 the Petitioner's time expired for filing a
petition for Certiorari contesting the Fourth Circuit's affirmation
of his conviction. See Supreme Court Rule 13, 30. No petition for
Certiorari wes filed. Lack of communication from attorney. After
his sentencing the petitioner had trouble getting information from
his attorney, who abandoned him.
4

Petitoner writ to District Court, even on the question of whether
his attorney filed an appeal.
On April 17, 2000, the same day the Fourth Circuit affirmed
his conviction, the District Court granted petitioner's pro se
motion to compel communication from his attorney and direct the
petitoner's attorney to communicate with him about the appeal.
In July 2000, acting on another pro se motion, the District
Court directed petitioner's attorney to file a letter detailing
how he had complied with the April order. The District Court has
no record of a filing in response to this directive.
In a later proceeding in which petitoner raise this last of
communication, petitoner's attorney stated on record that he
"considered his representation of petitioner to have been completed
at the conclusion of his appeal to the [Fourth Circuit]. In addition,
the petitioner's attorney stated that he "has no independent
recollection of petitioner requesting that this case be appealed to
the U.S. Supreme Court, either verbally or in writing, (although
counsel concedes he does not recall advising petitioner, in writing,
of his right to file a writ with U.S. Supreme Court.)
Habeas Proceeding - District Court. In January 2001, Petitioner
filed a habeas petition alleging that his sentence is unconstitu­
tional in light of Apgrendi v. New J_e_r_sey_, 530 U.S. 466 (2000).
In his habeas petition, Petitioner highlighted that his attorney
had not petitioned for Certiorari, and had made this decision
without petitioner's consent. Petitioner had 90 days in which to
file a writ of Certiorari with the United States Supreme Court,
but his counsel (albeit without petitioner's consent) opted not to
5

file the writ.
In its response, the United States argued in part that the
Apprendi claim was "barred on collateral review because A££rendi
was not a 'watershed

decision as the Supreme Court has defined

that term. The petitioner replied pro se, arguing that the
traditional retroactivity analysis did not apply because his
conviction was not final when the Supreme Court decided Ajjprendi:
"[T]he government completely ignored the fact that petitioner's
conviction had not become final prior to the decision of Apprendi"
The petitioner reiterated this argument in a supplemental
filing: "As to retroactivity of Apprendi, the date show that
petitioner's conviction became final only after the Apprendi ruling
came down. Therefore, retroactivity plays no part here:
In January 2002, the District dismissed the Apprendi claim
'based on then - existing Fourth Circuit precedent on when a con­
viction becomes final (the "Habeas sJudgment")
Apprendi "does not apply retroactively to cases
on collateral review" See United States v. Sanders,
247 F.3d 139, 146 (4th Cir. 2001). Consequently,
Mr. Salas cannot make a valid argument under
Apprendi if the judgment against him became final
prior to the Supreme Court's June 26, 2000 holding
in that case. The Fourth Circuit has adopted the
position that, when a defendant appeals to the
Fourth Circuit but does not file a petition for
a writ of Certiorari with the United States
Supreme Court, his or her conviction become final
on the date of the conviction is affirmed by the
Fourth Circuit. See United States v. Torres 211
F.3d 836, 838-39 (4th “CiF.
Petitioner moved for reconsideration and argued that his convic­
tion became final when the time for petitioning for Certiorari
elapsed - not when the Fourth Circuit affirmed his conviction:

6

The question is: When did petitioner's conviction
become final. The Supreme Court has succinctly
held that for retroactivity purposes, [b]y 'final'
we mean a case in which a judgment of conviction
has been rendered, the availability of appeal for
certiorari elapsed or a petition for certiorari
finally denied" See Griffith v. Kentucky, 479
U.S. .314 [1987].
The Petitioner again reiterated the relevant dates to his case:
because Apprendi v. New Jersey 120 S.Ct 2348 (2000) was decided
on June 26, 2000, and petitioner's case became final per Griffith
on July 17, 2000. It should be retroactively applied in petition­
er's case". The District Court denied the motion for reconsidera­
tion without analysis.
Habeas Proceeding - Fourth Circuit: Petitioner appealed the
Habeas Judgment. He again argued on appeal that his conviction
became final after the Supreme court decided Apprendi "Apprendi
was decided on June 26, 2000, and appellant's case became final
on July 17, 2000." The government did not file a brief on appeal.
In March 2003, while petitioner's appeal was pending, the
Supreme Court decided Clay v. United States, 537 U.S. 522 (2003)
Clay held that, for a federal prisoner, "a judgment of conviction
become final when the time expires for filing a petition for
certiorari contesting the appellate court's affirmation of the
conviction." Id at 525. In support of its holding, the Supreme
Court cited its precedent on finality, including case relied on
by the petitioner:

r.:

[in the context of postconviction relief,] finality
has a long-recognized, clear meaning: Finality
attaches when this court affirms a conviction on
the merits on direct review or denies a petition for
a writ of certiorari, or when the time for filing
a certiorari petition expires See e.g..,.. Griffith,
479 U.S. 314, 321 N.6 (1987 ...
7

Id. at 527. Clay resolved a circuit split, and explicitly reversed
the position taken

by the Fourth Circuit in Torres. Clay, 537 U.S.

at 526 (citing Torres and rejecting its holding).
Four Months after the Supreme Court decided Clay,! the Fourth
Circuit dismissed petitioner's appeal without analysis - ignoring
the Clay decision. .'United States v. Salas, 68 F. App's 484 (4th
Cir. 2003) (unpublished).
Petitioner timely petitioned for rehearing and rehearing on
banc. The petitioner - pro se - clearly explained the Supreme
Court's decision in Clay and its conflict with the panel decision:
Since the filing of the §2255 at the district level
and in this court, a change in the law occured,
which was overlookecPby tne paneT. Further, tKis
court decision or opinion is in direct conflict
with the Supreme Court's later decision consi­
dering the time when a conviction becomes "final"
see Clay v. U.S. No 01-1500 (3/4/03). When the
Supreme Court resolved the dilem[M]a among the
circuit as to when the conviction become final
for purpose of direct review and 28 U.S.C. §2255.
In Clay, supra, the Supreme Court overruled this
circuit precedent, which established the doctrine
of, "when a defendant's appeals to the Fourth
Circuit but does not file a petition for a writ
of certiorari, with the Unites States Supreme
Court, said conviction become[s] final on the
date the conviction is affirmed by the Fourth
Circuit." U.S. v Torres 211 F.3d 836-39 (4th cir,
2000)
Ignoring the clear error in the Habeas Judgment and the panel
decision, the Fourth Circuit denied the petition for rehearing
on Spetember 2, 2003.
Petitioner filed a motion seeking relief from the Habeas
Judgment under Rule 60(b). The petitioner argued that the
decision in Clay justified from the Habeas Judgment:
8

In denying the §2255, on sJanuary 29, 2002, this
Court stated, relying on U.S. v [Torres], 211
F.3d 836 (4th Cir. 2000)," that "because petitioner
did not file a petition for certiorari to the
Supreme Court, the conviction became final on
April 17, 2000, the date the Fourth Circuit
[ajffirmed the sentence and conviction ...
However, Torres, supra, on March 4, 2003, was
overruled by the Supreme Court's decision in
Clay v. United States ... Therefore, on virtue
of the Supreme Court decision on Clay, which
expressly overruled Torres, supra", and the fact
that Apprendi was decided~~bef ore petitioner[ ' s ]
90 day to petition for certiorari expired, and
the Clay ruling clealy clarified the Fourth
Circuit erroneous interpretation in Torres, this
court should vacate its order dismissing petitioner's
§2255, in order to cure this grave miscarriage of
justice ...
The district court dismissedthe motion in November 2004. The
district court seemed to acknowledge the error from the habeas
proceeding footnoting that "[t]he

Supreme Court held in Clay

that the one-year limitation periods for filing a §2255 motion
started to run when the time for seeking a writ of certiorari
in the Supreme Court on direct review expired."
Nevertheless, the district wrongly applied Fourth Circuit
precedent to classify the motion as a successive habeas petition.
The district court constrived the motion as petitioner "continu(ing)
his attack on his conviction based on precedencial evolution."
But petitioner did not seek to attack his conviction through this
Rule 60(b) motion, he sought to challange a defec in the integrity
of the habeas proceeding. Even so, the district court dismissed
the motion.
In sJune 2005, Petitioner focused on his attorney's lack of
communication during a period critical to the petitioner's case.
The window within which to petition for certiorari on his direct
9

appeal:
In the case at bar, movant was deprived of an
apportunity at a crucial time, because represen­
tation by appointed counsel was merely ineffective,
but enterely absent ...
His counsel[s] inaction on direct appeal and apparent
failure to communicate with movant, coupled with
the lack of Notice to movant personally of the
right to of certiorary prevented movant proceeding
pro se.
Movant argued that his attorney "knew or reasonably should have
known that if the Supreme court previously has granted certiorari
in another case to review an issue similar to one in movant's case
[(i.e., Apprendi)], the Certworthiness' of the issue already is
established." Last than a month later the district court dismissed
the motion as a successive habeas petition.
Petitioner timely moved to alter or amend the judgment under
Rule 59. Four days later, the district court denied the motion.
Petitioner appealed. The Fourth Circuit dismissed the appeal, and
denied rehearing See United States v. Salas No 05-7207 (4th Cir).
Petitioner petitioned for certiorari, which the Supreme Court
denied. Id.
In 2006, Petitioner filed a hotice with the district court
seeking to preserve a claim under United States v. Booker 543 U.S.
220 (2005). A Supreme Court decision on the constitionality of the
Sentencing Guidelines that stemned from Apprendi. The district
construed this filing as a motion and denied it.
From 2007 through 2009, petitioner continued to persue relief,
filing one motion unrelated to his Apprendi claim and the Habeas
sJudgment.
In 2010

petitioner moved from the Fourth Circuit to recall
10

the Mandate issued in his direct appeal. In this motion, petitioner
recounted the lack of communication from his attorney about the
appeal and about the timeline to file for certiorari. He asked
for the opportunity to file a writ of certiorari out of time. The
Fourth Circuit directed petitioner's attorney to respond.
In response, the petitioner's attorney stated that he "consi­
dered his representation of the petitioner to have been completed
at the conclusion of his appeal to [the Fourth Circuit]". The
Petitioner's attorney also "concede[d] he does not recall advising
petitioner, in writing, of his right to file a writ with the U.S
Supreme court."
The Fourt Circuit denied the motion to recall mandate.
From 201T through 2016, a new attorney appeared for the petitioner
for limited purpose of seeking a sentence reduction under Amendment
782 to the Sentencing Guidelines. The district court reduced the
petitioner's sentence to 30 years imprisonment in March 2017. The
attorney then moved to withdraw as attorney of record for the
petitioner, which the district court granted.
Rule 60(b) motion - In March 2018, petitioner filed the Rule
60 (b) motion at issue in this appeal. The petitioner appearing
pro se - styled the Rule 60(b) motion as a one made under Rule 60
(b)(4) seeking relief from a void judgment.
Petitioner also included an argument that relief from judgment
was warranted because of the extraordinary circumstances in his
case, including the Supreme Court's decision in Clay v United
States. The government did not file a response to the Rule 60(b)
motion.
11

In May 2018, the district court denied the Rule 60(b) motion as
untimely, and failure to establish extraordinary circumstance.
In its opinion, the district court appears to have construed
the Rule 60(b) motion as seeking relief under both Rule 60(b)(4)
and (b)(6).
As to relief under Rule 60(b)(4), the district court held that
"Salas fail to offer any persuasive argument as to why this court
should find that his Rule 60(b)(4) [motion] was filed within
a reasonable time."
As to Rule 60(b)(6), the district court focused on timeliness and
lack of extraordinary circumstance:

5 7/

[T]he Court construes Salas to also argue in his
Rule 60(b) motion that the Supreme Court's decision
in Clay is an extraordinary circumstance that
warrents vacating the dismissal of his §2255 motion.
However, this argument fail for two reasons. First,
the fourth circuit has made clear that extraordinary
circumstances do not exist where there is only a
change in decisional law. Second, the fourth circuit
instructs that even if extraordinary circumstances
exist, a movant must still meet Rule 60(b)'s
requirement of timeliness. Because Salas waited over
sixteen years after the dismissal of his §2255 motion
and fifteen years after the Supreme Court's decision
in Clay to bring his Rule 60(b) motion, his motion
is untimely, (internal citation omitted).

On May 28, 2019, petitioner timely appealed. The Fourth Circuit
appointed

undersigned counsel to represent the petitioner on appeal.

That same day, the Fourth Circuit granted a certificate of appealability. Petitioner's claim that the district court committed error
in dismissing his §2255 on the ground that it was untimely.
On December 10, 2020 case's argued by 4th circuit appeals
court. March 23, 2020 decided affirmed by

the 4th circuit panel.

Affirmed by unpublished opinion judge Cogbur wrote the opinion, in
12

which Judge Diaz and sludge Quattlebaum joined.
On May 21, 2020 the Court of

Appeal denies motion for exten-

sion of time to file a brief supporting the petition for rehearing
and rehearing en banc previously filed on April 20, 2020. The
Court denied the petition for rehearing and rehearing en banc on
May. 19, 2020.
Petitioner has not filed brief. He is representing as pro se.
He is currently under locked down status due to the COVID-19
pendamic.

13

REASON FOR GRANTING THE PETITION
The district Court denied relief on two. reasons for denying
petitioner's motion - untimeliness and failure to show

extraordinary

circumstances,;"
A change in decision (law alone is not "extraordinary" enough to
justify reopening a case "long since final", and that a lack of
diligence by the movant render the circumstance "all the less extra­
ordinary." On both points, the lack of extraordinary circumstances in
Gonzalez highlights the extraordinary circumstance, here.
First, in Gonzalez, the Federal Habeas judgment became final,
then the relevant change in dicisional law occured, and

then the

movant sought relief under Rule 60(b)(6>) 545 U.S. at 527. Base on this
timeline, the Supreme Court relief in part on the fact that the
judgment was "long since final" when change ini law occured. Id at 536.
Similarly,

the Fourth Circuit ease cited by the government focus on

changes in law after final judgment:
Indeed, even before Gonzalez was decided, Fourth
Circuit held "a change in decisional law subsequent to a final judgment provides no basis for
reFiel: uncTer Rule 60(hjX6)." Moses, 815 F.3d at
168-69 (quoting Dowell v. State Farm Fire & Cas.
Auto. Ins Co., 995" F 7T(T 46", 46" (7th Cir lU^T:
See"ars"o"HaIT v. Warden, Md Penitentiary, 364 F.
2d 495, 4'96~ "(TtmTTr T996) (en banc) [stating
that "judgments which had become final long before
[an intervining Supreme Court case] was decided
should not be reopened merely upon a showing of
inconsistency with that decision")
(emphasis added)
In contrast here, the relevant change in decisional law occured before
the Habeas; judgment became final. The Supreme Court decided Cla^ in
March 2003; the Habeas Judgment did not become final until after the
Fourth Circuit denied rehearing in September 2003 and after the
14

Supreme Court denied certiorari in February 2004. That the Supreme
Court decided Clay before the Habeas Judgment became final thus
renders the circumstances of petitioner's case extraordinary.
Second, unlike the movant in Gonzalez, Petitioner diligently
pursued review of the issue despite recognizing this portion of the
Gonzalez decision. But, the fact of petitioner's case reveal extra­
ordinary circumstances justifying relief from the Habeas Judgment.
The determination of "extraordinary cicumstances" under Rule 60(b)(6)
is a highly

fact-specific determination that must be made case-by-

case. "In determining whether extraordinary circumstances are present,
a court may consider a wide range of factors" Buck v. Davis

137 S.Ct.

759, 778 (2017). As the Supreme Court has long acknowledged and
recently reaffirmed, such factors may include '''the risk of injustice
to the parties' and

the risk of undermining the public's confidence

in the judicial process 1

I 1

Id. (citing Liljeberg v. Health Serv.

Acquisition Corp., 486 U.S. 487, 863-74 (1988); See also Satterfield
v. District Attorney Philadelphia 872 F.3d 152, 155 (3rd Cir. 2017)
(" A district court addressing a Rule 60(b)(6) motion premised on a
change in decisional law must examine the full penalty of equitable
circumstances in the particular case before rendering a decision. )
Taking the Supreme Court, "must continuously bear in mind that to
perform (their) high function in the best way justice must satisfy
In addition to timelyness, the Fourth Circuit
took to two other threshold requirements for
motions under Rule 60(b) - a meritorious
defense and a lack of unfair prejudice to the
opposing party. See United States v. Welsh,
879 F. 3d 530, 533 (4th cir. 2018). As discussed,
petitioner has a meritorious claim for relief
from the Habeas judgment. And in t he ^context of
§2255 motion, the United States as the opposing
15

party will not be prejudiced by Petitioner relief,
the appearance of justice." Lileberg, 486 U.S. at 864 (citing in re Murchison, 349 U.S. 133, 136 (1955)); See also United States
v. Welsh, 879 F.3d 530,536 (4th Cir. 2018) ("In determining whether
to grant relief from judgment under 60(b), a district court must
delicately balance the sanctity of final judgments ... and

the

incessant command of the Court's conscience that justice be done in
light of all t he fact.")
On the original and timely, even assuming that movant's second
Rule 60(b) motion was timely, petitioner's third such motion filed
over a decade later

is not. It is clear a fundamental miscarriage

of justice is taking place.
A notice of appeal that name the final judgment is sufficient
to support review of the all earlier order that merge in the final
judgment under general rule that appeal from a final judgment
support review of all earlier interlocutory orders: United States v.
Bosewell 2019 U.S. LEXIS 31855, Feb 28, 2019.
When a court of appeals properly applies : the certificate of
appealability (COA) standard and determines that a prisoner's claim
is not even debatable, that necessarily means the prisoner has failed
to show that his claim is meritorious. But the converse is not true,.
that a prisoner's f ailed to make the multimate showing that this
claim is meritorious does not logically mean he failed to make a
prelimanary showing that the claim was debatable. Thus, when a
reviewing court inverts the statutory order of operations and first
decides the merits of an appeal, then justifies its denial of a COA
based on its adjudication of the actual merits, it has placed too
^eavy'ya-hprden on the prisoner at the charge. sJudicial precedent
16

flatly prohibit such a departure presribed by 28 U.S.C. §2253.
See Buck v. Davis

137 S.Ct. 759, 781 (2017); and Tharpe v. Seller

138 S.Ct. 545: January 8, 2018. Buck's conviction and sentence were
affirmed on direct appeal. Buck v. States No 72,810 1999 Tax Crim.
App. unpub.LE:2<Tex. Crim. App., Apr 28, 1999>. His case then
entered a labyrinth of state and federal collateral review, where it
has wandered for the better part of two decades.
This appeal centers on whether the district court erred by denying
petitioner's Rule 60(b) motion as untimely. The government give little
attention to timeliness, instead focusing on the merit of the under­
lying Apprendi claim. The government also muddles the appropriate
framework for review of a motion for Rule 60(b) relief, invoking
inapplicable doctrines and precendent.
Rule 60(b)(6) provides relief from a final judgment
when extraordinary circumstances exist. A party must
also meet the threshold requirements: (i) reasonable
timeliness, (ii) a potentially meritorious claim, and
(iii) lack of unfair prejudice to the opposing party.
An appeal from the denial of rule 60(b) relief does
not bring up the underlying judgment for review.
Petitioner filed the Rule 60(b)(6) motion within a reasonable time
when considering the extraordinary circumstances of petitioner case.
A ruling that would again preclude petitioner from having his Apprendi
claim heard risks continued injustice. It is not clear what more a
pro-se prisoner could do to establish that petitioner acted with
sufficient diligence to preserve a meritorious argument than what
petitioner did here.
The district court abused its discretion by denying the Rule
60(b)(6) motion. To obtain relief from judgment under Rule 60(b), "a ..
moving party must first show (1) that the motion is timely, (2)
17

that petitioner has a meritorious claim or defense, and (3) that the
opposing party will not suffer unfair prejudice if the Court grants
petitioner relief under Rule 60(b), and motion was filed within a
reasonable time when considering the full facts of petitioner s case.
The primary issue in this appeal is whether the district Court erred
in denying the Rule 60(b) motion as untimely. In defending the
holding, however, the government makes only one argument on timeless.
The parties agree that motions under Rule 60(b) must be ...made
"within a reasonable time" But the government than makes the same
mistake as the district court. It concentrates on one fact - when
the Supreme Court decided Clayii v. United States, 537 U.S. 522(2003).
The government, like the district court, then compared the time since
Clay to the limits on a "reasonable time'' in other case. See Buck v._
Davis, 137 S.Ct. 759, 781 (2017); Tharpe v. Sellers 138 S.Ct 545:1/8/18.
The district court abused its discretion by denying the motion
under Rule (b)(6) without considering the extraordinary circumstance
of petitioner's case. Although petitioner styled the motion, as one
under Rule 60(b)(4), the district court correctly looked to the
substance of the motion in construing it as also seeking relief under
Rule 60(b)(6). As courts have found, the substance of a motion governs
over the title. See e.g., Gonzalez, 545 U.S. at 527 n.l (considering
a motion filed by a pro-se prisoner by its substance rather than its
title). This is especially true for motion filed by pro-se litigants,
which court "held to less stringent standards than formal pleadings
drafted by lawyers." Haines v. Kerner, 404 U.S. 5.19, 520 (1972); see
Erickson v. Pardus 551 U.S. 89, 94 (2007)
18

In the Rule 60(b) motion, Petitioner argued that the Habeas
Judgment is void, and also highlighted that the decision in _CljiX__v_._
United States were extraordinary circumstances justifying relief
from the Habeas Judgment. While the district court did not mention
Rule 60(b)(6) by name, it "construe[d] petitioner to also argue in
his Rule 60(b) motion- that the Supreme Courts decision in Clay is an
extraordinary circumstance that warrants vacating the dismissal of his
§2255 motion "Extraordinary circumstance" applies only to motion
seeking relief under Rule 60(b)(6). See Gonzalez 545 U.S. at 535,
see also

United States v. Me Rae, 793, 400 N.8 (4th Cir. 2015), and

Buck v. Davis, 137 S Ct. 759, 781 (2017). Because Rule 60(6) requires
a showing of "extraordinary circumstances." It necessarily entails a
review of the full circumstan ce of the specific case. For example,
in Buck v. Davis, the Supreme Court looked at "the circumstance of the
case " in reversing the lower court for mentioning relevant evidence in
its analysis. 137 S.Ct. 759, 778 (2017). Similarly, in Gonzalez_v_._
Crosby, the Supreme

Court looked not only at the ground for relief

offered by the movant under Rule 60(b)(6), but also petitioner s lack
of diligence in pursuin that relief. 545 U.S. at 536-37.
Indeed, this court has recognized the fact specific nature of
this determination, reiterating the need to delicately balance the
sancity of final judgment...

and the incessant command of the court's

conscience that justice be done in light of all t he fact.

Wf-lsh*

879 F.3d at 536 (emphasis added). By seeking to narrow the analysis
on t he Rule 60(b)(6) motion to the Clay decision, the government
ignores the other circumstance present in Petitioner 's case. These
circumstances include the procedural posture of petitioner's case
when the Supreme Court decided Clay, the well documented lack of
19

communication and abandon from petitioner's attorney at a critical
moment, and the deligence of petitioner in pursuing relief.
The district court sentence petitioner to life in prison in June
1999. Eight months later, having not received information from petiK
tioner attorney about the direct appeal. Petitioner moved the district
court to compel his counsel to communicate. In April 2000, the district
court granted the motion, directing petitioner's attorney "to communi­
cate with [Petitioner] and tell him whether or not an appeal was
filed." Base on>.i another motion filed by petitioner in July 2000,
presumably stating that petitioner had still not heard from petitioner
attorney, the district court then ordered petitioner's attorney to
file a letter detailing how he had complied with the prior order by
August 4, 2000.
On August 4, 2000 - after petitioner's time to petition for
certiorari on direct appeal expired - Petitioner's attorney finally
sent petitioner some communication. The record of this case thus
reveals a lack of communication from petitioner's attorney at critical
moment. Indeed, petitioner's attorney conceded that "he does not
recall advising petitioner in writing, of his right to file a writ
with the U.S. Supreme Court.
The government blame petitioner for not having more fact on
record about the lack of attorney communication. ("Precisely because
the defendant did not raise a claim of ineffective appeal advice in
petitioner first hebeas petition, the district court never convened an
evidentiary hearing on that issue. As a result, the record has gone
stale.") But responsibility for the lack of record on any communications
between petitioner and his attorney can equally be placed on his
attorney.
20

The petitioner's attorney ostensibly ignored the district court s
directive to tile with the court a letter detailing his communications.
If such a letter had been filed, more would be known about "mannner
in which [petitioner's attorney] has complied with the court s April
17, 2000 order that direct [him] to both provide [petitioner] with a
copy of the trial transcript and any pleadings filed with the Fourth
Circuit, and to communicate with [petitioner] regarding the status of
the appeal. Given these facts,placing the responsiblity on petitioner
a pro se litigant, for the record in this Rule 60(b) proceeding does
not "satisfy the appearance of justice." Liljerberg_v:i_JIe^th_Jerv.
Acquisition Corp.,486 U.S. 847, 864 (1988)
Extraordinary circumstances exist here, and the district court
abused its discretion in ignoring them. The district court violated
petitioner's right to trial by Jury under the Fifth and sixth Amendments. Apprendi v. New Jersey 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed
2d 435), also United Stat^s__y_._j^jnond 139 S.Ct. 2369; 204 Ld. 2d
897;- 2049. Petitioner has. a meritorious underlying claim. Two of the
district court's four major arguments to deny focuses on the merits
of petitioner’s Apprendi claim (arguing that petitioner procedurally
defaulted his Apprendi claim); Part II (arguing that the Apprendi
claim fails on plain error review). But "an appeal from denial of
Rule 609b) relief does not bring up the underlying judgment for
review." Browder v. Dir. Dep' t-JpJ .C?rJ_iLL> ^34 u,s* 257,263
N.7 (1978)\ see also In re Burnley, 988 F.2d 1, 3 (4th Cir) 1993)
("In ruling on an appeal from a denial of a Rule 60(b) motion this
court may not review the merits of the underlying order; it may
only review the denial of the motion with respect to the grounds set
21

forth in Rule 60(b)"). District Court's arguments are thus more suitable if petitioner wins this appeal and obtains relief from the Habeas
judgment - not on appeal of petition Rule 60(b) motion.
That said, within the confines of a Rule (b) appeal, the movant
show that the petitioner has a meritorious claim. Welsh, 879 F.3d a ..
533. This requirement entails a proffer of evidence that would permit
a finding for the movant. Augusta Fiberglass_J^oa^tin^Sj^JJISL*—X-._
^42^_Con^ac_t_ing__Cor£, 843 F.2d 808, 812 (4th Cir. 1988): See United
States v ._M_o_r_a_d_i 673 F.2d 725, 727 (4th Cir. 1982). The movant need
not show "an ironclad claim or defense which will guarantee success
at trial," but simply "a potentially meritorious claim or defense
which, if proven will bring success in its wake" United^States^
Kayser-Roth Corp., 272 F.3d 89,95 (1st Cir. 2001). And at later case
Supreme Court Case Buck v. Davis 137, S.Ct. 759, 781, Tharpe v. Seller
138 S.Ct. 545:: January 8, 2018.
Petitioner did not procedurally default his Apprendi claim
because petitioner's attorney raised the relevant constitional issue
at sentencing. The district court say, the jury in this case would
easily have concluded that the conspiracy involved one Kilogram or
more of heroin. But ignores a key fact. When during quantity has not
been alleged in the indictment and found beyond reasonable doubt by a
sentence in excess of the
jury, Apprendi precludes imposition of a
maximum
maximum prescribed by 21 U.S.C. §841 (b)(1)(c). 30 years
sentence under §841 (b)(1)(b) when defendant has prior felony drug
conviction. See Tharpe v. Sellers:: 138 S.Ct. 545:: January 8, 2018,
at late Supreme Court decision Haymond v. United__States 139 S.Ct. 2369;
204 L.Ed. 2d, 897; 2019. Quoting: Consistent with these understandings,
22

juries in

our consitutional order exercise supervisory authority

over the judicial function by limiting the judge's power to punish.
A judge's authority to issue a sentence derives from, and is limited
by, the j ury's

factual findings of criminal conduct. In early

Republic, if an indictment or "accusation...lack[ed] any particular
" it was
fact which the laws ma[d]e essentail to the punishment,
treated as "no accusation" at all. 1 Bishop §87, at 55; see also 2
M. Hale, Pleas of the Crown *170(1736); Archbold *106. And the
"truth of every accusation" that was brought against person had to
"be confirmed by the unanimous suffrage of twelve of his equals and
neighbours. " 4 Blackstone 343. Because the Constitution's guarantees
cannot mean less today then they did the day they were adopted, it
remains the case today that a jury must fund beyond a reasonable
I M

doubt every fact t ft which the law makes essential to [a] punishment
at 304,
that a judge might later seek to impose. Blakely, 542 U.S.,
124 S.Ct. 2531, 159 L.Ed. 2d 403 (quoting 1 Bishop §87, at 55).

Together with the right to vote, those who wrote our constit­
ution considered the right to trial by jury "the heart and lungs of
the mainspring and the center wheel" of our liberties, without which
"the body must die; the watch must run down; the government must
become arbitrary." Letter from Clarendon to W. Pym (Jan. 27, 1766),
in 1 Papers of John Adams 169 (R. Taylor ed. 1977). Just as the
right to vote sought to preserve

the people's authority over their

government's executive and legislative functions, the right to a
jury sought to preserve the people's authority over its judicial
functions. J. Adams Diary Entry (Feb. 12, 1771), in 2 Diary and
Autobiography [204 L.Ed. 2d 903] of John Adams 3 (L. Butterfield ed.
1961); see also 2 J. Story, Commentaries on the Constitution §1779,
23

pp. 540-541 £4th ed. 1873),
[139 S.Ct. 2376] Toward that end, the Framers adopted the Sixth
Amendment's promise that »[i]n all criminal prosecutions the accused
shall enjoy the right to a speedy trial, by an impartial jury." In the
Fifth Amendment, they added that no one many be deprived [2019 U.S.
LEXIS 12] of libert without "due process of law." Together, these
pillars of the Bill of Rights ensure that the government must prove to
a jury every criminal charge beyond a reasonable doubt, an ancient
rule that has "extended] down centuries." Apprendi v. New Jersey,
530 U.S. 466, 477, 120 S.Ct. 2348, 147 L.Ed. 2d 435 (2000). But when
does a "criminal prosecution" arise implicating the right to trial by
jruy beyond a reasonable doubt? At the founding, a "prosecution" of
an individual simply referred to "the manner of [his] formal accusation.
4 W. Blackstone, Commentaries on the Laws of England 298 (1769)
(Blackstone); see also N. Webster, An American Dictionary of the English
Language (1st ed. 1828) (defining "prosecution" as "the process of
exhibitng forma charges against an offender before legal tribunal").
And the concept of a "crime"

was a broad one linked to punishment,

amounting to those "acts to which the law affixes ... punishment,"
or, stated differently, those "element[ s'], in the wrong upon which the
punishment is based." 1 Bishop, Criminal Procedure §§80, 84, pp. 5153 (2d ed. 1872) (Bishop); see also J. Archbold, Pleading and
Evidence in Criminal Cases *106 (5th Am. ed. 1846) (Archbold)
(discussing a crime as including any fact that "annexes a higher degree
punishment") ; [2019 U.S. LEXIS 13] Blakely v. Washington, 542 U.S.
296

309, 124 S.Ct. 2531, 159 L. Ed. 2d 403 (2004); Apprendi, 530

U.S., at 481, 120 S. Ct. 2348, 147 L.Ed 2d 435.
24

The government then argues the evidence against peitioner was "over­
whelming," so the error should not corrected. That is incorrect.
The record permits a finding.that the evidence petitioner was
not overwhelming. To start, this case involves a conspiracy, it does
not involve!'possession or

distribution by petitioner. The government

brought forward no evidence of searches of petitioner's house,
restaurant, or night club that reveaived any drug or money, nor did
the government offer evidence that petitioner was arrested with any
drug or money.
Instad, as the government explained at trial, the conspiracy was
a"puzzle", to which each of the 13 testifying witness contributed a
piece. In sum, the evidence cited by the government about petitioner
involvment in this conspiracy is not overwhelming. At minimum, enough
uncertainty exists surrounding the evidence that the government relies
on to justify petitioner having the Apprendi claim heard by the district
court, leaving to the district court the task of reviewing the 300 page
trial

transcript. The transcript show the jury instruction clear the

district court to violated petitioner's right by Jury under Fifth and
Sixth Amendment. When they said. Meaning that the $1 million in drug
money sought as foreiture in the indictment was equivalent to around
eight kilogram.
A finding that the district court abused its discretion in
denying the Rule 60(b) motion based on the unique facts of petitioner's
case thus should not produce a"tidal wave" of claims. See e.g.

Buck

Y_\ Davis 137 S.Ct. 759, 781 (2017) (Thomas, J., dissenting) (noting
that a decisio nentitling a prisoner to relief under Rule 60(b)(6)
"has few ramifications, vif any, beyond the highly unusual facts
presented here")
25

The district court erred in denying as untimely the motion
under Rule 60(b)(4) for relief judgment. Seperate the error in denying
the motion under Rule 60(b)(6) the district court wrongly subjected
the motion to a timeliness requirement when it addressed the claim
for relief under (b)(4).
A void judgment is a legal nullity, United States Student Aid
Funds, Inc v. Espinoza 559 vs. 260, 270 (2010), and "no passage of
time can transmute a nullity into a binding, United States v. One
Toshiba Color Television, 213 F.3d 147, 157 (3d Cir. 2000) stated
another way "the reasonable time criterion of the Rule 60(b) as it
relates to void judgment, means no time limit, because a void judgment,
is no judgment at all." Rodd v. Region Const. Co. 783 F. 2d 89,91
(7th Cir. 1986) (citation omit ted); see also Hertz Corp v. Alamo
Rent-A-Car, Inc. 16 F.3d 1126, 1130 (11th Cir. 1994) (T)he time
within which a Rule 60(b)(4) motion may be brought is not constrained
by reasonableness.)
Indeed, the United States has conceded the point in other cases,
acknowledging in briefs that Rule 609b)(4) "place no time limit on
an attack upon a void judgment" See, e.g. United States v. Philip
Morris USA Inc., brief for the United States of America, 2016
WL 1069314 (D.C. Cir., Mar. 17, 2016); see also Stoecklin v. United
States, brief of the Appellee, 2001 Wl 34142816 (11th Cir) Sept 2001.
("Absent exceptional circumstances, a Rule 60(b) (4) motion may be
made at any time.")
Here, the district court wrongly denied relief under Rule 60(b)(4)
as untimely, finding that "petitioner fail to offer any persuasive
argument as to why this court should find that the petitioner Rule
(b)(4) was filed within a reasonable time."
26

But the Rule 60(b)(4) motion"is not subject to the reasonable
time limitations imposed in the other provisions of Rule 609b)."
In re Heckert, 272 F.3d at 256-57
On May 28, 2019, the United States Court of Appeals for the
Fourth Circuit grant a Certificate of Appealability on petitioner's
claim that the district court committed error in dismissing his
§2255 motion on the ground that it was untimely. However, despite
the fact specific. Similarly, in Gonzalez v. Crosby the Supreme
Court looked not only at the ground for relief offered by the
movant under Rule 60(b)(6) or in Buck v. Davis, the Supreme Court
looked at the circumstances of this case.
On March 23, 2020. On virtue of the Fourth Circuit arbitrary
and adversed decisoin against the petitioner. Affirmed District
Court Judgement.
On May 19, 2020, the Court denied the petition for rehearing
and rehearing en banc. The petitioner could not file brief due
to C0VID-19 pandemic prison lock down status.

CONCLUSION
For these reasons, the Court should reverse the district
court and either remand with instruction to grant the Rule 60(b)
motion or remand for further proceedings.

Pro Se

Mario Salas 49988-053
MVCF
555 GEO Drive
Philipsburg, PA 16866

27

